•91
-^
A. . 9
&
s
v_"J- V
No.
Supreme Court. U.S.
________ FH Fp________

JUN 2 2 2021
OFFICE OF THE CLF:RK

IN THE
SUPREME COURT OF THE UNITED STATES
For The Fifth Circuit

Bryson Tuesno

— PETITIONER

(Your Name)
vs.
Court Of Appeals

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

The United States Court Of Appeals For The Fifth Circuit

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Bryson Tuesno

(Your Name)
P.O. Box 1031

(Address)
Coleman, Florida 33521

(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED

Is it a violation of one's 6th amendment right to Impartial Jury by allowing
one person to contridict another person's testimony with hearsay statements?
In which makes the jury impartial when viewing these statments.

LIST OF PARTIES

[ 1 All parties appear in the caption of the case on the cover page.
M All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
UNITED STATES V. HOGAN, 763 F.2d 687 (5TH CIR. 1985)

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

Z

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

H

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

£>

INDEX TO APPENDICES
APPENDIX A

APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

United States Court Of Appeal For The Fifth Circuit's decision

TABLE OF AUTHORITIES CITED
CASES

STATUTES AND RULES

/

OTHER

PAGE NUMBER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ Vhas been designated for publication but is not yet reported; or,
M is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ]/has been designated for publication but is not yet reported; or,
M is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my ease
was
3 / 7 /Z-\_________
[M No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
__________ ____________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

6th Amendment Right to Impartial Jury
The governmet violated Tuesno's 6th amendment right to impartial jury
by allowing a F.B.I agent to testify hearsay statments, which contridicted
the previous witness's actual statement. Which made the jury impartial
because they did not know which statment was the truth. In this case they
witness testified her own statement and the agent testified making a statment
in which there was no proof of.

3.

STATEMENT OF THE CASE

The government called Gabriel as a hostile witness so it can later
call,a law enforcement officerto counter attact her testimony with inadmissable
hearsay statments. The government could not use Gabriel's prior statement
(which she stated she does not remember saying and there was no proof of
anything otherwise) through the testimony of another to establish cumulative
hearsay evidence against Tuesno.
Admission of Gabriel's testimony was plain error, irrelvant and cumulative.
Her testimony and the government's attempt to impeach her testimony was an
an improper way to cast Tuesno as guilty.
The reflects that the government called Gabriel seemingly to confirm a
a statement in which there was no proof of. The government attempted to have
Gabriel identify a vehicle presented to the jury. Gabriel answered "I don't
remember saying that".
In response to Gabiel's testimony the government called agent Adam Plummer
who claims he met with Gabriel on august 31, 2016 in order to have a look at
her vechicl. Agent Plummer claims he showed Gabriel a photograph containg
a monte carlo which prompted Gabriel to supposedly say it was her vechile.
Plummer's testimony was intended to contradict Gabriel's testimony. The
government's effort to impeach her testimony concerned the jury. It asked
during delberations for the 302 so it could review that statement.
Like U.S V. Hogan, 763 F.2d 697 (5th Cir. 1985) the prosecution announced
to the jury that Gabriel would be a hostile witness. It sought to elicit from
her (1) information not in dispute (2) information agent Plummer claims he
heard after showing Gabriel a photograph of a monte carlo; and (3) information
from a metting in which it allowed Gabriel to leave in the vehicle, which the
government claimed was so vital to its investigation.

4.

REASONS FOR GRANTING THE PETITION

In this circuit, the prosecutor may not use a statement under the guise
of impeachment for the primary purpose of placing before the jury substantive
evidence which is not otherwise admissible. U.S V. Hogan, 763 F.2d 697 (5th
Cir. 1985). Which is a violation of the 6th amendmentright to impartial jury.
By doing this it allows the government to minipulate the jury by trying to
make them belive their witness instead of the witness's testimony, for such
a scheme merely serves a subterfuge to undermine the law and avoid the hearsay
rule. The danger is obvious. The jury will hear the hearsay testimony, which
is hot otherwise admissible and is not substantive proof of guilt, but is likely
to be recieved as such proof. The 5th circuit court of appeals granted an appeal
very similar (U.S V. Hogan), But denied Tuesno's. By allowing the government
to avoid the hearsay rule it is a clear violation of the 6th amendment.

5.

For the reasons herein this convictionshould-be reversed. The Fifth Circui-Ehas already ruled that "the government may not call a witness to elicit
inadmissible hearsay testimony. In,this case that is exactly what the government
did. Also this is a clear violation of one 6th amendment right to impartial
jury. United states V. Hogan 763 F.2d 697 (5th Cir.1985).

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

7.9!z I

6.

